IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT

DEIDREM. HUNT,
Appellant,
v.

CASE NO. 5D20-1399

STATE OF FLORIDA,
Appellee.

DATE^- November 05, 2020 ^
BY ORDER OF THE COURT:
ORDERED that Appellant's Motion for Rehearing, Motion for Written Opinion
and Motion for Certification, filed October 14, 2020 (mailbox date), is denied.

PROVIDED TO:
lOWELl-CORRECTIONAL ANNEX ON:

I hereby certify that the foregoing is
(a true copy of) the original Court order.

i

'"-S.

v
BY:

EqUAi^

NOV 10 2020
FOR MAKING

M«TH

S

p*

/S' /[J^
SANDRA B. WILLIAMS, CLERK
Panel: Judges Lambert, Sasso, and Traver
cc:
Kellie A. Nielan

Office of the Attorney
General

Deidre M. Hunt

1

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
DEIDRE M. HUNT,
Appellant:
v.

Case No. 5D20-1399

STATE OF FLORIDA,
Appellee.

Decision filed September 29, 2020
3.850 Appeal from the Circuit
Court for Volusia County,
James R. Clayton, Judge.
Deidre M. Hunt, Ocala, pro se.
Ashley
Moody,
Attorney
General,
Tallahassee, and Kellie A. Nielan, Assistant
Attorney General, Daytona Beach, for
Appellee.
PER CURIAM.
AFFIRMED.

LAMBERT, SASSO and TRAVER, JJ., concur.

IN THE CIRCUIT COURT OF THE SEVENTH JUDICIAL CIRCUIT
IN AND FOR VOLUSIA COUNTY, FLORIDA
STATE OF FLORIDA
PRQVIbEflfcE^U.:
LOWEU CORRECTIONAL ANNEX ON:

V.

1989 007637 CFAES

MAY 2 7 2020

DEIDRE M. HUNT,
Defendant.

BY:

i%a
C9

<n.

FOR MAILING
O'ss»

ro

ORDER DISMISSING DEFENDANT’S MOTION FOR POSTCONVICTIO^TcRELffiF
“

{T?

-J*■

This matter came before the Court upon consideration of the pro se Defendanpg‘lvfJtion 1

- C '&

for Postconviction Relief,” dated January 29, 2018, and “Amended Motion for Po^tconviction
Relief,” dated on June 18, 2018. The Court, having reviewed the motions, the court file, the
State’s response, and being otherwise apprised of the premises, finds as follows:
PROCEDURAL HISTORY
On May 7, 1990, Defendant pled guilty to two counts of first-degree murder, two counts
of attempted first-degree murder, two counts of solicitation to commit first degree-murder, one
count of conspiracy to commit first-degree murder, and one count of burglary of a dwelling
while armed. Hunt v. State, 613 So. 2d 893, 894 (Fla. 1992). Defendant waived a penalty-phase
jury. Id. The trial judge, upon finding of aggravating and mitigating factors, imposed a death
sentence on Defendant for each count of first-degree murder. Id. at 895. On direct appeal.
Defendant’s convictions were affirmed, but her sentences were vacated and remanded for
resentencing. Id. at 898.
On March 8, 1996, Defendant was permitted to withdraw her plea of guilty. State v. Hunt,
687 So. 2d 851, 851 (Fla. 5th DCA 1997). On April 23, 1998, after a jury trial, Defendant was
convicted in this case of two counts of first degree murder, one count of conspiracy to commit

G

t

t

>
41 ;«

<■ VJ(,'

first degree murder, one count of solicitation to commit first degree murder. Defendant was
sentenced June 26, 1998, with corrected sentences filed nunc pro tunc on September 9, 1998 as
follows: consecutive sentences of life imprisonment with a minimum mandatory term of 25 years
on each count of first-degree murder and concurrent sentences of 30 years of imprisonment on
each count of solicitation and conspiracy. Hunt v. State, 753 So. 2d 609, 612 (Fla. 5th DCA
2000). Defendant’s convictions and sentences were affirmed on direct appeal. Id. Mandate issued
on March 13,2000.
On July 16, 2001, Defendant filed her first motion for postconviction relief, which was
denied on the merits and per curiam affirmed on appeal. Hunt v. State, 810 So. 2d 956 (Fla. 5th
DCA 2002). On March 21, 2016, Defendant filed a successive motion for postconviction relief
based on the United States Supreme Court’s decisions in Hurst v. Florida, 136 S. Ct. 616 (2016)
and Montgomery v. Louisiana, 136 S. Ct. 718 (2016), as revised (Jan. 27, 2016). Appendix A,
Def s Mot. For Postconviction Relief, Mar. 21, 2016. This Court denied Defendant’s successive
motion for postconviction relief, finding that neither Hurst nor Montgomery were applicable to
Defendant’s case. Appendix B, Order Denying Def.’s Mot. For Postconviction Relief, May 11,
2017. In its prior written Order, this Court found that Defendant was not entitled to relief
pursuant to Hurst because Hurst applies to the imposition of death sentences, and Defendant was
not sentenced to death. Id. This Court further found that Defendant was not entitled to relief
pursuant to Montgomery because Montgomery prohibits the imposition of life sentences without
parole upon juvenile offenders. Id. Defendant was not a juvenile offender at the time of the
offenses, nor did she receive a life sentence without parole for any offense in this case.
Therefore, this Court found that Defendant had failed to establish a new fundamental
constitutional right that applied to her case, as contemplated under Rule 3.850(b)(2). Id.

2

Defendant appealed. This Court’s decision was affirmed, and mandate issued on October 3,
2017.
Defendant filed a “Motion for Postconviction Relief’ on January 29, 2018 and her
“Amended Motion for Post for Postconviction Relief’ on June 18, 2018. The State filed its
response on May 5, 2020.
ANALYSIS
In her most recent motions, Defendant once again asserts that the United States Supreme
Court’s decision in Montgomery established a new fundamental constitutional right that applies
to her case. This time, however, Defendant urges the court to consider her developmental age
rather than her chronological age at the time of the offenses, though she admits her chronologic
age at the time of the offenses was 20 years. Appendix C, Def.’s Amended Mot. For Post
Conviction Relief, June 18,2018,13-14.
A successive motion for postconviction relief is an extraordinary pleading and may be
dismissed where Defendant fails to meet her burden under the rules. “[A] court may dismiss a
second or successive motion if the court finds that it fails to allege new or different grounds for
relief and the prior determination was on the merits or, if new and different grounds are alleged,
the judge finds that the failure of the defendant or the attorney to assert those grounds in a prior
motion constituted an abuse of the procedure or there was no good cause for the failure of the
defendant or defendant’s counsel to have asserted those grounds in a prior motion.” Fla. R. Crim.
P.3.850 (h)(2).
Defendant’s Second Successive Motion for Postconviction Relief is without merit and
successive. Defendant fails to assert new or different grounds for relief, and the prior successive
motion for postconviction relief was decided on the merits. Defendant provides no legal support

3

